<html>
<title> - AFGHANISTAN AND PAKISTAN: OVERSIGHT OF A NEW INTERAGENCY STRATEGY</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
   AFGHANISTAN AND PAKISTAN: OVERSIGHT OF A NEW INTERAGENCY STRATEGY 

=======================================================================

                             JOINT HEARING

                               before the

                       COMMITTEE ON OVERSIGHT AND
                           GOVERNMENT REFORM

                                and the

                   SUBCOMMITTEE ON NATIONAL SECURITY
                          AND FOREIGN AFFAIRS

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 24, 2009

                               __________

                           Serial No. 111-99

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

63-038 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 
























              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      DARRELL E. ISSA, California
CAROLYN B. MALONEY, New York         DAN BURTON, Indiana
ELIJAH E. CUMMINGS, Maryland         JOHN M. McHUGH, New York
DENNIS J. KUCINICH, Ohio             JOHN L. MICA, Florida
JOHN F. TIERNEY, Massachusetts       MARK E. SOUDER, Indiana
WM. LACY CLAY, Missouri              JOHN J. DUNCAN, Jr., Tennessee
DIANE E. WATSON, California          MICHAEL R. TURNER, Ohio
STEPHEN F. LYNCH, Massachusetts      LYNN A. WESTMORELAND, Georgia
JIM COOPER, Tennessee                PATRICK T. McHENRY, North Carolina
GERALD E. CONNOLLY, Virginia         BRIAN P. BILBRAY, California
MIKE QUIGLEY, Illinois               JIM JORDAN, Ohio
MARCY KAPTUR, Ohio                   JEFF FLAKE, Arizona
ELEANOR HOLMES NORTON, District of   JEFF FORTENBERRY, Nebraska
    Columbia                         JASON CHAFFETZ, Utah
PATRICK J. KENNEDY, Rhode Island     AARON SCHOCK, Illinois
DANNY K. DAVIS, Illinois             ------ ------
CHRIS VAN HOLLEN, Maryland
HENRY CUELLAR, Texas
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
PETER WELCH, Vermont
BILL FOSTER, Illinois
JACKIE SPEIER, California
STEVE DRIEHAUS, Ohio
------ ------

                      Ron Stroman, Staff Director
                Michael McCarthy, Deputy Staff Director
                      Carla Hultberg, Chief Clerk
                  Larry Brady, Minority Staff Director

         Subcommittee on National Security and Foreign Affairs

                JOHN F. TIERNEY, Massachusetts, Chairman
CAROLYN B. MALONEY, New York         JEFF FLAKE, Arizona
PATRICK J. KENNEDY, Rhode Island     DAN BURTON, Indiana
CHRIS VAN HOLLEN, Maryland           JOHN L. MICA, Florida
PAUL W. HODES, New Hampshire         JOHN J. DUNCAN, Jr., Tennessee
CHRISTOPHER S. MURPHY, Connecticut   MICHAEL R. TURNER, Ohio
PETER WELCH, Vermont                 LYNN A. WESTMORELAND, Georgia
BILL FOSTER, Illinois                PATRICK T. McHENRY, North Carolina
STEVE DRIEHAUS, Ohio                 JIM JORDAN, Ohio
STEPHEN F. LYNCH, Massachusetts      JEFF FORTENBERRY, Nebraska
HENRY CUELLAR, Texas                 ------ ------
MIKE QUIGLEY, Illinois
                     Andrew Wright, Staff Director
























                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 24, 2009....................................     1
Statement of:
    Holbrooke, Ambassador Richard C., U.S. Special Representative 
      to Afghanistan and Pakistan; and General Wallace Gregson, 
      Assistant Secretary of Defense for Asian and Pacific 
      Affairs....................................................   125
        Gregson, General Wallace.................................   139
        Holbrooke, Ambassador Richard C..........................   125
Letters, statements, etc., submitted for the record by:
    Gregson, General Wallace, Assistant Secretary of Defense for 
      Asian and Pacific Affairs, prepared statement of...........   140
    Holbrooke, Ambassador Richard C., U.S. Special Representative 
      to Afghanistan and Pakistan, prepared statement of.........   128
    Issa, Hon. Darrell E., a Representative in Congress from the 
      State of California, Carnegie Endowment for International 
      Peace article..............................................     9
    Tierney, Hon. John F., a Representative in Congress from the 
      State of Massachusetts, prepared statement of..............     5
    Towns, Hon. Edolphus, a Representative in Congress from the 
      State of New York, prepared statement of...................   157


   AFGHANISTAN AND PAKISTAN: OVERSIGHT OF A NEW INTERAGENCY STRATEGY

                              ----------                              


                        WEDNESDAY, JUNE 24, 2009

        House of Representatives, Committee on Oversight 
            and Government Reform, joint with the 
            Subcommittee on National Security and Foreign 
            Affairs,
                                                    Washington, DC.
    The committee and subcommittee met, pursuant to notice, at 
11:15 a.m., in room 2157, Rayburn House Office Building, Hon. 
John F. Tierney (chairman of the Subcommittee on National 
Security and Foreign Affairs) presiding.
    Present from the Committee on Oversight and Government 
Reform: Representatives Towns, Cummings, Kucinich, Watson, 
Kaptur Norton, Speier, Issa, Souder, Bilbray, and Chaffetz.
    Present from the Subcommittee on National Security and 
Foreign Affairs: Representatives Tierney, Van Hollen, Welch, 
Cuellar, Quigley, Flake, and Turner.
    Also present: Representative Coffman.
    Staff present: Adam Hodge, deputy press secretary; Carla 
Hultberg, chief clerk; Ophelia Rivas, assistant clerk; Ron 
Stroman, staff director; Andy Wright, staff director, 
subcommittee; Scott Lindsay, counsel, subcommittee; Elliot 
Gillerman, clerk, subcommittee; Brendan Culley, detailee; Cliff 
Stammerno, legislative assistant; Steven Gale, fellow; John 
Cuaderes, minority deputy staff director; Frederick Hill, 
minority director of communications; Dan Blankenburg, minority 
director of outreach and senior advisor; Adam Fromm, minority 
chief clerk and Member liaison; Kurd Bardella, minority press 
secretary; Seamus Kraft, minority deputy press secretary; Tom 
Alexander, minority senior counsel; Dr. Christopher Bright, 
minority senior professional staff member; and Glenn Sanders, 
minority Defense fellow.
    Mr. Tierney. Good morning. A quorum being present, the 
Committee on Oversight and Government Reform and the 
Subcommittee on National Security and Foreign Affairs will come 
to order. The hearing is entitled, ``Afghanistan and Pakistan: 
Oversight of a New Interagency Strategy.''
    I ask unanimous consent that only the chairmen and ranking 
members of the committee and subcommittee be allowed to make 
opening statements. Without objection, so ordered.
    I ask unanimous consent that the hearing record be kept 
open for 5 business days so that all members of the committee 
may be allowed to submit a written statement for the record. 
Without objection, so ordered.
    I want to welcome both of our witnesses here today. Thank 
you for coming. Ambassador, we appreciate your forbearance last 
week when we had a day of unexpected and lengthy votes. I am 
very respectful of the fact that you have moved your schedule 
around and made yourself available today. General Gregson, we 
are happy to have you here with us as well. Though you wouldn't 
have been here last week, we have the benefit of your presence 
here today.
    The President's interagency strategy for Afghanistan and 
Pakistan is a welcome shift in the approach to that region of 
vital national security interest. As the new strategy 
recognizes, our common goal with Afghanistan and Pakistan will 
require a closely coordinated effort between all three states. 
Ultimately, the United States must rely on the capabilities of 
the Pakistani and Afghan governments themselves.
    This hearing has come at a critical time. Afghanistan will 
hold Presidential elections in August amid a long, 
deteriorating security situation. The United States has 
committed to significantly increase its troops on the ground 
coupled with a so-called civilian surge of 450 additional aid 
professionals over the next 18 months. Finally, we have a new 
Commander in Afghanistan, Lieutenant General McChrystal, who 
has arrived on the ground there this past week.
    After years of seemingly inconsistent attention to the 
threat posed by extremist militants in the North-West Frontier 
Province and the federally Administered Tribal Areas, as well 
as increasingly in Balochistan and Punjab, Pakistan seems to 
have finally harnessed the political will and manpower to 
engage in a concerted action to retake Swat and the adjoining 
areas of the Malakand region in the past 8 weeks. It is 
important to recognize and honor the sacrifice that Pakistan 
and its soldiers have made during this campaign. That has been 
substantial.
    But tragically the nature of the recent fighting has 
produced by some accounts approximately 3 million internally 
displaced persons, an expression I understand the Ambassador 
doesn't like to use any more than we do because of its 
impersonal nature. But there are 3 million people who are now 
without homes, without businesses, and having a difficult time 
struggling to survive and to get their lives back together. And 
there are untold numbers of civilian casualties.
    According to public reports, the Pakistani military will 
now turn its focus to the much more difficult terrain of south 
Waziristan where Baitullah Mehsud and the most hardened 
Pakistani Taliban--and likely senior Al Qaeda leadership--
reside. Undoubtedly the military and civilian toll will 
dramatically rise in this portion of the campaign and 
Pakistan's resolve for the long struggle ahead will be sorely 
tested.
    As the United States discovered in Iraq and Afghanistan, 
initially clearing extremist militants from an area does not in 
itself create long term security. Long term security will 
require a comprehensive strategy to secure, rebuild, and 
implement the political, legal, and economic enfranchisement of 
Pashtun populations that have been isolated for far too long.
    Critically, the Pakistani civilian government must extend 
its writ to all areas of the country. For too long, Pakistan 
has ceded its authority in some regions and failed to establish 
a basic domestic compact between the Federal Government and the 
people residing in those regions. The United States must 
continue to support the Pakistani government as it provides 
more security, more governance, and more basic services in 
those provinces.
    I have a concern that, as a result of its history of 
failure to adapt its national security priorities to the 
evolving circumstances of militant extremism, Pakistan 
currently lacks the resources and strategic doctrine to engage 
in a concerted campaign to win the hearts and minds of its own 
people in the affected regions. The House of Representatives 
has recently taken an important step to address this issue by 
passing the Berman bill, also known as the PEACE Act. The 
Senate has marked up its counterpart to the Berman Bill, the 
Kerry-Lugar Bill. These bills propose to triple economic 
assistance to Pakistan in the next 5 years to $1\1/2\ billion.
    We recognize that some controversy has been stirred over 
the question of conditions in the legislation. Some are 
concerned that conditions will offend the political 
sensitivities of Pakistanis.
    In last Thursday's subcommittee hearing we had various 
witnesses, one of whom was expert Dr. Samina Ahmed of the 
International Crisis Group. She testified and put in her report 
that the Pakistani population, particularly those in the 
embattled regions, distrust the military's historic involvement 
with the Taliban and other extremists. There are notable 
examples of inexplicable conduct such as failing to target 
wanted leaders of visible anti-government groups and failing to 
dismantle their known bases. We have learned of the release 
from confinement of such leaders, even those believed to be 
implicated in the Mumbai bombings. We are painfully aware of 
the military's proclivity for entering into truces with 
extremists and ceding territory to their control only to have 
residents there suffer egregious repression.
    I support the conditions that are in the Bill and wish that 
they were stronger and more pointed. They are applied only to 
the military and not to civilian assistance. In the Berman 
Bill, I hope that my colleagues, people in the other chamber, 
and the administration will support the carefully crafted and 
negotiated legislation.
    One of the principal aims of today's hearing is to address 
the serious accountability and transparency concerns that have 
plagued U.S. programs and operations in both Afghanistan and 
Pakistan for the past 7 years. For example, last year this 
subcommittee conducted a major investigation of the Coalition 
Support Funds Program by which the United States reimbursed 
Pakistan for expenses it incurred in certain counter-terrorism 
operations. This program has represented the bulk of U.S. aid 
to Pakistan's military in the past 7 years, amounting to over 
$6.7 billion to date. Our investigation found that there were 
no receipts for a significant portion of U.S. reimbursements to 
Pakistan and that the program lacked basic accountability 
provisions. Further, this program has not improved the 
Pakistani military's capabilities for counter-terrorism or 
counter-insurgency operations.
    Another purpose of this hearing is to hear from our 
witnesses about implementing a fundamentally interagency 
strategy across the departments in the U.S. Government. We want 
to know about the contributions by the various departments, 
their coordination amongst others, and the strategic guidance 
and implementation directives that are coming from senior 
leadership. In addition, we want to know whether there are 
capacity problems at the civilian national security agencies 
that need to be addressed further by this Congress.
    Finally, the most immediate and urgent task for the United 
States is to provide aid to alleviate the suffering of the 
Pakistanis displaced by current fighting. We have had the 
opportunity to speak with Ambassador Holbrooke about his recent 
trip to the camps. I want to express my strong support for that 
trip, for his efforts, and for the United States' efforts.
    About a week ago last Thursday, the subcommittee held a 
hearing on the humanitarian crisis and heard witnesses 
testifying in this room and from Islamabad. They reported that 
they expect the crisis to get worse before it gets better and 
that much more must be done. It is our oversight capacity and 
our responsibility to continue to urge the United States to 
provide aid for humanitarian crises and to make sure it is 
delivered to the field promptly, effectively, and accountably.
    With that, I defer to Mr. Issa who will give his opening 
remarks.
    [The prepared statement of Hon. John F. Tierney follows;]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Issa. Thank you, Mr. Chairman. Mr. Chairman, I would 
ask unanimous consent that the gentleman from Colorado, Mr. 
Coffman, be allowed to sit in on the hearing today.
    Mr. Tierney. Without objection, so ordered.
    Mr. Issa. Additionally, Mr. Chairman, I would ask unanimous 
consent that the article from the Carnegie Endowment for 
International Peace be entered into the record today. This was 
a witness we chose not to have so as to keep the hearing 
simple.
    Mr. Tierney. Without objection, so ordered.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Issa. Thank you. Ambassador, General, I want to thank 
you for being here today.
    As the new administration begins to implement its vision of 
a better and safer world, particularly as to the deteriorating 
situations in Afghanistan and Pakistan, I am comforted to know, 
Ambassador, that you will be involved firsthand in this. Over 
the years in which you have been out of the administration, I 
have had an opportunity to meet with you around the dinner 
table and throughout the circuit here of good thinkers. They 
had a lot of thoughts and were often asked if they had been 
asked, but seldom could they answer that they were.
    The tools the previous administration used undoubtedly will 
be the same tools you use. What will be different can only be 
the tone and the amount of each of those tools.
    Certainly, as your administration inherits an Afghanistan 
dependent upon poppy production at a level far greater than at 
any time in history, it is particularly difficult to wean a 
people off of a corrupting influence like the production of 
tools for heroin. Additionally, the situation in Pakistan has 
only deteriorated during the previous 4 years. This is by 
definition a huge problem for the new administration.
    So I want to say today that, on a bipartisan basis, we look 
forward to working with you as you attempt to reverse what has 
been in many ways the 9/11 failure. Notwithstanding that, it is 
no surprise to you that I would say that Iraq is to a great 
extend behind us. That will allow you the opportunity to work 
on this troubled region.
    This is the Committee on Oversight and Government Reform, 
not the Foreign Affairs Committee. Although I am pleased, as is 
the ranking subcommittee member, to be a member of Foreign 
Affairs on leave of absence, I recognize that our job is not to 
discuss in detail your vision. Our job is to provide the 
oversight as to whether or not the plan has been properly 
thought out as to cost and effectiveness.
    Additionally, as the chairman indicated in his opening 
remarks, there have been serious concerns about waste, fraud, 
and abuse. This is both directly with our partners in 
Afghanistan and Pakistan and, in previous hearings of this 
committee, with our NATO partners. Large amounts of cash have 
been taken to the region, often with little or no oversight. I 
hark back onto a hearing in which we discovered that good NATO 
allies were given tens of millions of dollars simply on one 
General's signature. Although they are allies--I rely on them 
to try to protect us--I recognize that we would not accept that 
one American General signed for $20 million with no further 
receipt. We certainly cannot expect less of our NATO partners 
than we expect of our own homegrown Generals.
    General, that will be one of our questions today, 
undoubtedly. Can we bring a level of transparency and 
accountability both to our effort at nation-building and to our 
cost and detailed work in the region?
    Without a doubt, that is the primary jurisdiction of this 
committee. I always remind my colleagues and particularly 
myself that we are a committee of broad jurisdiction, but we 
are not the Foreign Affairs Committee. Our efforts today will 
be in order to support you but at the same time to let you know 
in no uncertain terms that this committee is dedicated to 
making sure the American taxpayers' dollars are spent wisely.
    With that, I thank the chairman for this important hearing 
and yield back.
    Mr. Tierney. Thank you. Well, Mr. Flake has probably gone 
voting.
    We are having votes, I wanted to share that with my 
witnesses, from time to time today. We are going to continue on 
through the hearing. The absence of some Members on occasion 
here is not any indication of their lack of interest but rather 
their obligation to register their votes and also sometimes to 
be at other committees as well. But we are going to continue 
on.
    We will now receive testimony from the panel that is before 
us today. I would first like to say a few words about each of 
the witnesses.
    Ambassador Richard Holbrooke serves as President Obama's 
Special Representative to Afghanistan and Pakistan. Prior to 
that he served as chairman of the Asia Society. From 1991 to 
2001, Ambassador Holbrooke served as the U.S. Ambassador to the 
United Nations. He has also held a number of other senior 
diplomatic posts including Special Envoy to Cyprus and Kosovo 
and U.S. Ambassador to Germany. Throughout his career, 
Ambassador Holbrooke has held a number of other distinguished 
positions in both the public and the private sectors. He holds 
a Bachelor of Arts from Brown University. Welcome, Ambassador.
    General Wallace ``Chip'' Gregson serves as Assistant 
Secretary of Defense for Asian and Pacific Security Affairs. 
Prior to assuming this post, General Gregson was owner and 
president of WCG & Associates International, a foreign policy 
and military affairs consulting organization. Prior to his 
retirement from the U.S. Marine Corps, General Gregson was 
Commanding General of the Marine Corps Forces Pacific and 
Marine Corps Forces Central Command. General Gregson holds a 
Bachelor of Science from the U.S. Naval Academy as well as M.A. 
degrees from the Naval War College and Salve Regina College. 
Thank you for joining us here today, General.
    Thank you to both of you for making yourselves available 
and giving us your expertise. It is the policy of this 
committee to swear witnesses in before they testify. I ask you 
to please stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Tierney. Thank you. The record will please reflect that 
both of the witnesses answered in the affirmative.
    As you are experienced witnesses, you know that your full 
written statement by unanimous consent will be allowed into the 
record. We ask you to summarize your statement.
    Ambassador, we would like to begin with you. Feel free to 
take a reasonable amount of time. We are not going to shut you 
off in 5 minutes.

  STATEMENTS OF AMBASSADOR RICHARD C. HOLBROOKE, U.S. SPECIAL 
REPRESENTATIVE TO AFGHANISTAN AND PAKISTAN; AND GENERAL WALLACE 
 GREGSON, ASSISTANT SECRETARY OF DEFENSE FOR ASIAN AND PACIFIC 
                            AFFAIRS

          STATEMENT OF AMBASSADOR RICHARD C. HOLBROOKE

    Ambassador Holbrooke. Thank you, Mr. Chairman. It is a 
great honor to appear before this committee for the first time. 
I have never testified before this committee, although I have 
been testifying before the Congress and the House since 1977.
    I am very mindful of what your colleague, Congressman Issa, 
just said, that your main goal is ``dedicated to making sure 
American taxpayers' dollars are being wisely spent.'' I take 
that very seriously and I share that goal. More importantly, it 
is a specific instruction that the Secretary of State and the 
President have issued to us.
    I would like to divide my opening comments into two parts. 
First, I will discuss the strategic issues. Second, and very 
briefly, in addition to this lengthy opening statement that I 
would like to submit for the record, I want to comment on the 
points you have just made.
    First of all on the strategic issues, I concur fully in 
what both you and Congressman Issa have just said. This is a 
strategic priority for the United States for reasons that we 
all know. Pakistan contains within its western areas people who 
have attacked the United States, our European allies, India, 
and the people of Pakistan repeatedly. They have said they wish 
to do so again. They are--and there is no other word for it--
our enemies.
    In Afghanistan, the Taliban continues to fight and form a 
support group for Al Qaeda and the others who threaten the 
United States directly. So at this point, separating the 
Taliban and Al Qaeda is not something one can do in terms of 
our policies.
    In terms of our resources, of course, there is a huge 
mismatch. In Afghanistan we have 68,000 troops. They are on 
their way. We have a vast civilian and growing infrastructure, 
considerable involvement, on the ground in Pakistan. The 
government of Pakistan has made clear from the beginning that 
there are certain red lines which cannot be crossed. Most 
important, is no ground troops. They do not wish any American 
military presence on the ground and we fully respect that. So 
we can take that off the table.
    However, supporting Pakistan in every possible way is of 
the highest priority to the United States. For example, we have 
an integrated White House, Treasury, and State Department team 
on its way to Pakistan now to talk to them about how we can 
help their economy more. They are facing some deadlines from 
IMF loans. They are facing a very tough set of problems and we 
want to show assistance in every way. With the support of this 
body, additional funds have been voted in the Supplemental. In 
addition to that, $200 million has been voted in the 
Supplemental for the internal refugees in Pakistan.
    Thank you for noting my aversion to the initials IDP. These 
are human beings. They were farmers; they were pharmacists; 
they were jewelers. They are living now in hot, airless tents 
on the flatlands of Pakistan's west. They are from the 
highlands. They need to go home. By the way, Mr. Chairman, 
having read the testimony of the three witnesses you had 
earlier--Ken Bacon, Sherry Rehman, and the person from 
International Crisis Group whose name I don't remember--I want 
to concur in virtually everything they said to you.
    So we have the highest possible priority in terms of our 
national security interests at stake. Having said that, we all 
recognize that this is a very difficult, difficult set of 
problems. The administration, building on what we inherited, 
has made significant adjustments in our policy, which I can 
refer to in more detail later. If I had to give a headline, I 
would say, a massive increase in agriculture and a continued 
focus on stopping the drug trade. But within that, Mr. 
Chairman, we are downgrading our efforts to eradicate crops 
with spraying--a policy we think was totally ineffectual--but 
we are going to increase efforts on interdiction and going 
after the drug lords. So we are not downgrading narcotics. We 
are downgrading crop eradication and upgrading agriculture. We 
have to improve the police and we have to work on governance.
    I would draw your attention to one last point, the 
elections. In 55 days from today there will be an election in 
Afghanistan that will have a direct bearing on the future of 
American and international policy in Afghanistan. It must be a 
fair, open, and legitimate election. If it is not, if it for 
example looks like something resembling what is happening next 
door to the west, it would undermine the legitimacy of our 
effort and the legitimacy of whichever candidate won. So to 
underscore the most important point we can make on Afghanistan, 
we are not supporting any candidate. We are not opposing any 
candidate. But we are actively supporting a fair, free, and 
open process.
    For example, Ambassador Eikenberry, our extraordinary new 
Ambassador on the ground in Afghanistan who twice was the 
Commander of U.S. forces and brings to his job both his past 
and present positions. To this end Ambassador Eikenberry has in 
the last few days participated in press conferences with three 
leading members of the opposition. He made an opening statement 
saying how strongly we were committed to a fair process without 
endorsing the candidate he was attending the press conference 
of. He then made no further comments during the meeting. Each 
candidate presented their platforms. He is challenging every 
candidate to come up with platforms.
    Some people said he was intervening in showing a 
preference. Our position, and I am happy to discuss this for 
the first time publicly today with you, our position was very 
simple. We are not supporting a candidate but, because of the 
high investment that the international community has made in 
Afghanistan, we are supporting a process. It must result in a 
legitimate outcome. He and General Jones, our National Security 
Advisor, are in Kabul today and they have been talking to 
various leaders.
    Finally, Mr. Chairman, is our organizational structure. As 
you yourself mentioned, the President and the Secretary of 
State directed me to create a special office in the State 
Department which is a true interagency office. It is what 
Secretary of Defense Bob Gates, after visiting us 2 days ago, 
called ``a genuine whole of Government effort.'' General 
Gregson is one of the people who feeds into our effort through 
a new meeting which we are holding. We held one yesterday and 
we will hold one again tomorrow in which all the agencies send 
their own representatives. But inside our office we have 
representatives of the CIA, AID, the Joint Chiefs of Staff, the 
Department of Agriculture, the Treasury Department, the 
Department of Homeland Security, the FBI, and the Office of the 
Secretary of Defense, a person who used to work with General 
Gregson. This remarkable interagency effort feeds directly into 
the National Security Council. The documents I gave you, which 
I would prefer not be made public, outline the details of the 
result.
    With that, Mr. Chairman, I thank you for holding this very 
important hearing. I look forward to answering your questions.
    [The prepared statement of Ambassador Holbrooke follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Tierney. Thank you, Ambassador. I want to just say that 
I believe everybody has read the written statement which was 
even more extensive than your opening remarks. We appreciate 
the time that went into that as well.
    General.

              STATEMENT OF GENERAL WALLACE GREGSON

    General Gregson. Mr. Chairman and members of the committee, 
thank you for the opportunity to testify today. I am here today 
on behalf of Under Secretary of Defense for Policy, Ms. Michele 
Flournoy, who is currently on travel to Beijing and Tokyo. She 
expressed her regret that she could not be here but the written 
testimony that she submitted prior to last week's scheduled 
hearing remains the statement of record. I have come prepared 
with a short opening statement as well.
    I would like to thank you, Mr. Chairman and members of the 
committee, for this opportunity to speak to you at this moment 
of opportunity. The issue today could not be a more apt 
subject, the interagency efforts of the administration to 
design and implement a whole of government strategy for 
Afghanistan and Pakistan. This unprecedented task relies much 
on the insight and guidance of Congress. Our assistance to the 
people in governments of Afghanistan and Pakistan is at a 
crucial juncture and our ability to operate smoothly as a 
cohesive and agile team will, with your help, play as large a 
role in determining the outcome of the fight as anything else.
    With that, let me stop. I will submit the rest for the 
record and we can get on with your questions.
    [The prepared statement of General Gregson follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Tierney. You were not kidding when you said it was a 
brief opening remark. We will go to the question period now on 
that, if I could.
    Ambassador, I just want to start off by asking you this: In 
reviewing your testimony, you made mention of the fact that you 
would support expanding the Special Inspector General for 
Afghanistan Reconstruction's [SIGAR], mandate and 
responsibilities. Would you also support the expansion of those 
responsibilities to monitor our aid programs in Pakistan?
    Ambassador Holbrooke. Yes, I would, Mr. Chairman. In fact, 
my next meeting after this hearing will be with Major General 
Fields, the head of SIGAR. We are very impressed with what the 
Congress established a year or two ago in creating SIGAR, but 
we noted two things. Its mandate is limited only to one of the 
two countries, yet we all agree that they are equally 
important. Second, we recognize, respect, and support its total 
independence from the executive branch. They will follow your 
guidance, not ours.
    In Afghanistan, interest has been expressed by Afghans 
themselves about the possibility of SIGAR helping them in their 
anti-corruption drive. They can speak for themselves but they 
think they need approval from your body or the overseeing 
bodies to do this. I will leave to you the discussion with 
General Fields as to whether his mandate needs to be expanded 
on the corruption issue in Afghanistan.
    But on Pakistan there is no question. The legislation is 
restricted to Afghanistan. Speaking for myself--even within the 
executive branch there is some disagreement on this but since 
you asked and I am under oath, I will tell you what I believe--
the answer to your question is an unambiguous yes.
    Mr. Tierney. Well, I appreciate that. Some of us on this 
committee have been thinking along the same line. We have a 
meeting set up with General Fields to talk about what the 
potential for that is but also whether or not he is going to 
need more personnel to do that and whether or not he needs more 
legislative capacity as well.
    Let me ask you another question. In the President's----
    Ambassador Holbrooke. May I just interject? Excuse me, Mr. 
Chairman. General Fields has said that if he is given the 
additional mandate, he will need additional resources. But I 
leave that to you.
    Mr. Tierney. OK, well that is good. In the President's 
speech when he announced this whole new interagency strategy, 
he said, ``We will set clear metrics to measure progress and 
hold ourselves accountable. We will consistently assess our 
efforts to train Afghan security forces and our progress in 
combating insurgents. We will measure the growth of 
Afghanistan's economy and its illicit narcotics production. And 
we will review whether or not we are using the right tools and 
tactics to make progress toward accomplishing our goals.''
    It has been 3 months since he made that statement. Have you 
developed any metrics? If so, how are we going to assess the 
United States' performance moving forward?
    Ambassador Holbrooke. The answer to your question is yes. 
Let me explain first of all that, because of the enormous 
combination of responsibilities our small office has, the 
metrics issue has been handled by other divisions of State, the 
intelligence community, and the National Security Council.
    Metrics have been developed. There has been extensive 
consultation with the Congress on this. We are working them out 
at all levels. Some will be classified; others will be public. 
Of course, you will have access to both the public and the 
classified.
    Mr. Tierney. When do you think they will be released, at 
least the public versions?
    Ambassador Holbrooke. I can't give you a date for certain, 
Mr. Chairman, because the mandate on that, the leadership on 
that rests directly with the National Security Council. I do 
not have a date. Can I answer you in a written message this 
afternoon?
    Mr. Tierney. That would be fine.
    Ambassador Holbrooke. The reason I can't give you a 
specific date is simply that the tasker went elsewhere. It is a 
very complicated issue.
    Let me just say one thing. Having been through several 
guerrilla wars, we must differentiate between input and output. 
We can tell you how much money we are spending, how much food 
we are giving under the World Food Program, and our support for 
CERP programs. But how do you measure results on the ground? If 
you were to ask me how we are doing in Swat, I could tell you 
what the Pakistan Army has done but I couldn't tell you how 
much damage has been done to the Taliban. Until you know that, 
you don't know if you are succeeding.
    Having started my career in Vietnam, I saw a confusion 
between input and output, most famously on the body count 
issue. That was a dangerous and misleading statistic but there 
were many others. I am very pleased to see that General 
Petraeus is moving away from that. There were some articles 
about this and we are moving away from it.
    So I want to be very careful that when we talk to you about 
benchmarks, we give you meaningful measurements of progress and 
are not simply telling you how we are organized and how we 
spent the money. That sorting out is what we are doing now.
    Mr. Tierney. That will be appreciated. Thank you.
    Mr. Issa, you are recognized for 5 minutes.
    Mr. Issa. Thank you, Mr. Chairman. Ambassador, I know 100 
or so days isn't very long but the good news, as I said in my 
opening comments, is that you never gave up your passion to 
look at all of these regions.
    The previous administration had a bias toward using 
military assistance to do what had historically in some cases 
been State Department work. Not just in this region, if you 
don't mind, but perhaps looking more at the whole 
administration, how do you intend to balance how much is 
military delivering nation-building versus either directly or 
hand in hand with State Department your folks overseeing that? 
You mentioned General Petraeus. We all have a great deal of 
confidence in him. But who is going to have the lead and how 
will it be different than the previous administration?
    Ambassador Holbrooke. This is a very important question. As 
you know, books have been written on this. From my point of 
view, to begin by analyzing the problem, you can't separate the 
civilian and the military aspects of a war in which terrain is 
not the issue. It is control of the population. Either there is 
support or there is passive acceptance of coercive force. That 
is what happened in Swat.
    The Afghan people are overwhelmingly against the Taliban. 
The IRI poll that came out the other day had additional 
evidence of that. But their regard for the government of 
Afghanistan has been declining. What we need to do now is 
restructure our policies to improve the capacity of the Afghan 
government and its security forces. If we don't do that, 
Congressman, we will never be able to carry out the exit 
strategy.
    Now, I want to stress when I use those loaded words that I 
didn't say exit timetable. This is a tough war. But the long 
term way for the United States and its allies to draw down its 
forces, as President Obama has said, is to buildup Afghan 
capacity in both areas.
    Now your question went to the issue of how the military and 
the civilians integrate. In the previous era----
    Mr. Issa. I think you partially answered it by saying that 
today the Afghans are not the best way to deliver support for 
the Afghan people. That is your goal, which of course begs the 
question of the outcome of the election. It does matter if it 
makes a difference as to how that is accomplished.
    My question really was are they going to see the lead in 
some way changing a little bit more toward this is the U.S. 
Government versus this is the U.S. military delivering this 
aid?
    Ambassador Holbrooke. First of all, I want to start with a 
statistic we discovered when we took office. Only 10 percent of 
American civilian assistance was going through the government, 
yet the rhetoric was to strengthen the government. We were 
undermining it without even realizing it.
    I talked earlier when you went out to vote about the 
agriculture program. The Afghans used to be agriculture 
exporters. They know how to farm in that rocky and high 
altitude soil but they need help in rebuilding. Here is a 
perfect example of your issue. The U.S. military gives out free 
seed as part of its CERP programs. We are all in favor of that. 
We think it is great because it helps farmers get back on their 
feet. But it doesn't build a long term capacity.
    Under the new plans and under the direction of the 
President and the Secretary of State, in our office we have 
USDA, AID, and the Pentagon all together. In fact, this morning 
we briefed some of your colleagues on this very program. We are 
working at a new integrated approach to agriculture. General 
Nicholson, who some of you know, our Commander of all the surge 
troops in Kandahar and RC South, has been working with our AID 
and agriculture people. We are going to bring in 60 new 
agricultural people. Tom Vilsack is involved personally and he 
will be going out there next month.
    Mr. Issa. Ambassador, let me tie into, as my time is 
expiring, the last part. How is that going to bring greater 
accountability and transparency for us to see those dollars? As 
you said, a lot of those dollars were not only around the 
government but they were fairly opaque to this committee.
    Ambassador Holbrooke. Well, they were opaque to us. We are 
spending a lot of time trying to find out where they go. By the 
way, we are having even greater trouble knowing what other 
countries are doing so sometimes there is international 
redundancy and sometimes there are great gaps.
    When you were out of the room, I quoted back to your 
committee your own phrase that you are ``dedicated to making 
sure American taxpayers' dollars are being used wisely.'' That 
is our highest goal. That is why we talked about SIGAR a moment 
ago.
    In regard to your issue, we are focused on accountability. 
There are hundreds of AID, DOD, and other contracts which we 
have suspended, put holds on, and refused to pass forward 
because we were dissatisfied with the rationale behind them. 
The President and the Secretary of State have instructed us, 
and DOD is working with us on this, to reduce the number of 
contracts. Sometimes building a road, that is easy. But why, 
for example, were we subcontracting $30 million for women's 
programs to NGO's instead of using it directly under the 
Ambassador? So when the contract came to me for approval, and 
Secretary Clinton has asked me to do that, I stopped the 
contract. We turned the money over to the embassy and we now 
have an ambassadorial fund for women's programs.
    That way, we think we will have more accountability. We are 
going to work with SIGAR as often and as freely as possible. I 
could give you many other examples. This is a work in progress 
but I cannot underscore how strongly we believe in your goal 
and how closely we are working with our colleagues in the 
Pentagon, AID, USDA, the FBI, and elsewhere.
    Mr. Issa. Thank you. In writing, to the extent that your 
staff can, I would appreciate seeing some of the other 
examples. It is very helpful.
    Mr. Tierney. Mr. Welch, you are recognized for 5 minutes.
    Mr. Welch. Thank you, Ambassador. Thank you, General. You 
all have probably one of the hardest, if not the hardest, jobs 
in Government. We really appreciate your service.
    The fundamental question, which is a tough one, is what is 
the right strategy to deal with a very difficult problem? 
Obviously, the weight of our strategy is based on military 
engagement in Afghanistan and support in Pakistan. I think the 
Obama administration is rightly focused on trying to help with 
capacity building as well. But I have skepticism about the 
capacity to execute on that strategy. There are some critics 
who suggest the better approach is essentially containment as 
opposed to transformation and nation-building. There are two 
examples that stick out in my mind that demonstrate how tough 
it is for our tremendous military and our tremendous diplomats.
    First, when we were with Mr. Tierney in Afghanistan, we 
talked with some folks from the Chamber of Commerce whose job 
was to try to encourage investment in Afghanistan. Their 
biggest problem was exemplified by the example of truckers 
coming from the Iranian border into Kabul who were stopped on 
average 27 times and shaken down by ``authorities.'' If you 
wanted to get a driver's license in Kabul you had to get 21 
different people to sign off.
    Then second, one of our wonderful State Department people 
that we met in Kabul had a job outside of the embassy to 
monitor and implement a program of demining, which is obviously 
incredibly important to the folks there. I asked her how many 
times she had been out in the 10 months she had been on 
assignment. She had only been off that base once because of the 
security concerns.
    So it raises just very serious questions in my mind about 
the fundamental tenet that a) you can have the military take on 
this new mission that historically has never been what we have 
asked of our military, namely nation-building and capacity 
building, and b) to have the civilian capacity building occur 
when the shooting is going on, which means the security needs 
for those folks are so great that they can't do their job.
    Many critics who prefer containment to this nation-building 
would suggest that when you are going to do this capacity 
building with NGO's or State Department people it has to be 
done either before or after the shooting but not in the middle 
of it.
    So I am sorry for such a long introduction on this but it 
really is the core of my apprehension about the strategy. I 
would ask each of you to comment on that. If we were going to 
do containment as opposed to this military engagement, what 
would we do? What gives us confidence that we can achieve this 
goal that never in the history of the country has it achieved 
by the military, the building nations? Let us start with you, 
General.
    General Gregson. Thank you for the question. I think 
containment, just to set a premise and then return to it later, 
containment would be exceedingly difficult. We have seen that 
the forces of globalization around the world make that 
virtually impossible to execute now with any effect.
    The military role in the counter-insurgency in a large 
respect is protection of the population. There are times when 
we have to do the protection ourselves. But we want to 
transition that as quickly as possible to a properly organized 
security sector, meaning in this case the Afghan National Army, 
the Afghan National Police, the border police, and other 
similar institutions.
    With that, though, has to immediately or concurrently come 
development. We have to bring the instruments of good 
governance to places that haven't had good governance. We have 
to provide more government services to the villagers and to the 
farmers than the Taliban provides while we are simultaneously 
eliminating the Taliban. The nation-building thing has in the 
past sometimes devolved to the military while we are building 
civilian capacity to do that. But it is not an either/or. Both 
of these have to be done together.
    In the past, the phrase used to be we fight the Nation's 
wars. That was wrong on a couple of counts. The Nation fights 
the Nation's wars, not the military. But the goal of any 
conflict or any engagement of the military is profoundly 
political. That in a counter-insurgency situation means 
protecting the population and ensuring the delivery of good 
government services.
    One example of how this fits together is that it used to be 
much more difficult to train soldiers and police because there 
was no viable banking sector in Afghanistan. The individual 
soldiers had to take their pay and personally walk it home to 
their family, which could be miles away. So you were losing 
your forces for 2 weeks. Thanks to a lot of great civilian 
efforts, we now have a much more viable banking sector which in 
turn increases the effectiveness of the forces we are trying to 
train.
    Mr. Tierney. Thank you, General. Thank you, Mr. Welch.
    Mr. Flake, you are recognized for 5 minutes.
    Mr. Flake. Thank you, Mr. Chairman. Ambassador Holbrooke, 
do we have a Status of Forces Agreement that includes State 
Department officials and whatnot or is it just with our 
uniformed personnel?
    Ambassador Holbrooke. There is no Status of Forces 
Agreement.
    Mr. Flake. Is that something that needs to be remedied or 
is that something we are just going to deal with?
    Ambassador Holbrooke. Having negotiated these things 
before, I think we are better off right now being in 
Afghanistan under the U.N. mandate, which was all-embracing. It 
is the most far reaching U.N. mandate in the history of the 
U.N. because it stems directly from the events of 9/11. It 
included not only the Security Council but the whole General 
Assembly. So sooner or later, of course, but negotiating a SOFA 
is really tricky. When the Afghan government feels it is 
necessary, of course we will do it. But right now I would leave 
it where it is.
    Mr. Flake. We are OK under the U.N. umbrella, then. OK.
    You mentioned that the support for the Afghan government 
seems to be declining. To what do you attribute that, mostly? 
Is it the perception of corruption or is it just the inability 
to deliver services or security? What is at the root of that?
    Ambassador Holbrooke. Let me stress, Congressman, that I 
was quoting an IRI poll. I don't have a view on that, I just 
noted it. Second, according to the same poll, corruption and a 
difficulty in delivering services left many people feeling that 
their country was not as well off as it was in 2004 when 
everything looked much rosier. On the other hand, nobody wants 
to go back to what is called the Black Years. So while 
reporting to you accurately, I don't want to leave you with a 
sense of despair.
    Mr. Chairman, if I could add one word about Mr. Welch's 
question on the wall of security that doesn't allow Americans 
to get out in the field? This is a huge problem. I have met 
people in Kabul who never left the embassy compound for a year 
except to get on the airplane and take their vacations. What 
are they doing there, particularly somebody in the demining 
area as Congressman Welch referred to?
    Ambassador Eikenberry and his team are loosening the 
boundaries of that. They are removing the curfews. They are 
forcing people to go out. We have a huge civilian buildup 
underway and if the people just come into compounds we are 
wasting time, money, and so on.
    Mr. Flake. Kind of going off on that, some of us have been 
in country and have visited some of the Provincial 
Reconstruction Teams [PRTs]. Having spoken to a number of them, 
there seems to be--and it seems that you are correcting some of 
the lack of coordination on this side--I am just wondering if 
that filters down to the PRTs?
    I can tell you over the last several years there has not 
been coordination there. One seems not to know what the other 
is doing. There is no sharing of best practices. You have 
nutrition programs here; you have something completely 
different going on in another place. What are we doing on the 
ground? I understand what is being done here to coordinate but 
is that filtering all the way down?
    Ambassador Holbrooke. Congressman Flake, our efforts are 
only as good as they are at the province and district level. I 
began my career as a province representative in the Mekong 
Delta. We were living with the military and working with them 
so I believe in that.
    We are turning the political advisors, the so-called pol-
ads, into active operational people. We are abolishing the pol-
ad system. By the way, we also abolished the defense attache 
office in the embassy, removing 18 military positions from the 
embassy which frees them up for useful service. And we are 
going to put a senior civilian in each province and at the 
regional commands to work with the military commanders.
    We have this straightened out already on the U.S. side. 
General Petraeus and I have a framework agreement. Ambassador 
Eikenberry and General McChrystal and their teams are drilling 
down to the operational level as we speak. But we have not yet 
got everyone out in the field. The other problem we have is 
that it only applies so far to areas where there are U.S. 
forces and U.S. PRTs.
    I will be going to Italy tomorrow to meet with my 
international counterparts. There are about 25 countries now 
that have appointed counterparts to me from Britain to Tokyo, 
from the United Arab Emirates to Sweden. We are all meeting and 
we are trying to get other countries to follow the model.
    I am not trying to subordinate civilians to the military, 
going back to Congressman Welch's question. But this is a war 
and the lead has to be taken by the military. The civilian part 
of it, however, is integral to success because it is about 
strengthening the government's capacity to take care of its own 
problems.
    If I were to list the problems, you started with 
corruption, but I would say the top three issues in no 
particular order are governance, corruption, and the quality of 
the security services. Narcotics is a big issue but it is not 
the reason we are having difficulties. Finally and above all 
other issues is the sanctuary in Pakistan. If that isn't fixed, 
success will be virtually unachievable.
    Mr. Flake. Thank you.
    Mr. Tierney. Thank you. Mr. Quigley, you are recognized for 
5 minutes.
    Mr. Quigley. Thank you, Mr. Chairman. Good afternoon, 
gentlemen. Shifting the focus for myself onto Pakistan and our 
relationship with the leadership in Pakistan, we read of the 
drone attacks and cross border attacks that have taken place in 
the past. I guess I want to couple that thought and your 
evaluation of how that is affecting the good that we are trying 
to do with the interviews I saw with Pakistani leaders in other 
discussions. I guess I was questioning whether they seem to 
have a firm grasp of the reality of their situation, their 
strengths, their weaknesses, and what they might have to do to 
solve these issues.
    Ambassador Holbrooke. They do have a firm grasp of the 
severity of the situation but they may have gotten there a 
little more slowly than you and other Americans might have 
liked. Having just been out there on my third trip in 4 months, 
and I will be going back again in a couple of weeks, I am quite 
convinced that the three most powerful elements in Pakistani 
political life all share a common enemy, a common problem, and 
are coming together. Those three elements, of course, are 
President Zardari and his PPP party, Nawaz Sharif and his 
brother the Chief Minister of the Punjab and their party, and 
the Pakistani Army. All three are united. Public opinion in 
Pakistan has begun to coalesce around common opposition.
    But this goes back to our early colloquy with Congressman 
Issa and Chairman Tierney and the witnesses you had when we 
weren't here. All of them, as I read their testimony, all of 
them emphasized the point I want to underscore, too. When the 
refugees go back, they have to have security. If they don't, 
and if we have a replay of the Taliban coming down out of the 
hills, it will be a catastrophic setback. One of your 
witnesses, the Foreign Minister of Information, Sherry Rehman, 
made that point in very dramatic terms. I don't share all her 
rhetoric but I certainly share her view.
    So my answer to your question is there is a common 
understanding. But are there enough resources? I don't think 
so. I am very, very pleased that your body passed the Howard 
Berman led legislation that gave $1\1/2\ billion of 
authorization a year for the next 5 fiscal years and supported 
the ROZ legislation put forward by Congressman Van Hollen. That 
was terrific legislation. It got huge headlines, Mr. Chairman, 
in Pakistan. If the Senate follows suit, that will be the kind 
of support we must, in my view, give Pakistan.
    Mr. Quigley. Let me interject with that and perhaps you can 
educate me on where their thoughts are now. I refer to 
Pakistan's desire to build their nuclear arsenal, which would 
seem to be misplaced in time.
    Ambassador Holbrooke. Congressman, with great respect let 
me follow our standard policy and offer you and your colleagues 
a classified executive session discussion on that. It would 
serve no national security interest whatsoever to discuss that 
issue in pubic except to say that we understand your point of 
view and are not ignoring it.
    Mr. Quigley. I understand. I guess in closing, the first 
point I had made, if you could focus a little more on the 
negative reaction perhaps to drone attacks or cross border 
ventures and how that is playing out now in Pakistan?
    Ambassador Holbrooke. You are very good at asking the most 
sensitive questions today, Congressman.
    Mr. Quigley. That is what my wife says. [Laughter.]
    If you wish to reserve that for another session, that is 
fine.
    Ambassador Holbrooke. It would make our lives easier if we 
discussed that also in closed session. But let me say that we 
are very mindful of the complexities of this issue. Let me just 
stress again that the people who have publically and repeatedly 
said that they wish to stage another 9/11 reside to some large 
degree in that portion of Pakistan which is out of reach of 
American ground troops.
    If I can just acknowledge Congressman Van Hollen as he 
comes in, I was mentioning your legislation before you came in. 
I just want to acknowledge again how extraordinarily valuable 
it is and how much I appreciate your leadership on that issue.
    Mr. Tierney. Thank you, sir. Mr. Souder from Indiana, you 
are recognized for 5 minutes.
    Mr. Souder. Thank you. First I want to thank you for using 
Camp Atterbury. It is an amazing training camp for our Guard 
and regular military people heading over to Afghanistan because 
it has all sorts of buildings like a city. Some of the soil is 
actually similar to the soil over in that region. I appreciate 
that so many different branches of the Government are now 
seeing that.
    I have worked for many years with the heroin question. I 
have some concerns about the current strategy. Before the 
Russian plane wrecked, I was one of the only groups that ever 
got down into the Helmand Province. I understand how it differs 
from Colombia but there are a lot of similarities to Colombia. 
It is not true that the heroin is mostly in individual 
compounds. There was heroin as far as the eye could see. The 
former king both in exile and after he came in was repeatedly 
critical of our strategy of not eradicating. They were the 
breadbasket of the world before heroin.
    Going in and trying to do alternate agricultural crops when 
you have the opportunity to get huge dollar returns off of 
heroin as compared to traditional agricultural crops, there has 
to be a disincentive to plant heroin in addition to an 
incentive to plant other crops. I am wondering what the current 
status is of trying to employ both the stick and the carrot. It 
will not suffice to say plant corn when you can get an 
incredible amount more than you can for corn.
    A second part of this is there seems to be a presumption 
here--let me ask you a series of questions--the second quick 
question is what is Al Qaeda funding itself with if they aren't 
getting some kind of money from the heroin crops either in the 
form of providing protection kickbacks like FARC does in 
Colombia or, in many cases from what I understand, direct 
control of the poppy?
    Third, are we trying to send a message to other countries 
around the world that we think poverty is the reason for 
terrorism? If so, how do we not repeat what happened in gang 
programs early in the United States? When the Bloods and the 
Crips first started up, we started job programs for the Bloods 
and the Crips. What we found was that the number of kids who 
joined the gangs went up four times from what it was because 
the only way to get after school programs and so on was to join 
the Bloods and Crips. How do we not send a message if it is all 
just kind of positive feeling stuff, we are going to help you 
do agriculture? How do we not walk into this trap that other 
countries will start harboring, that other countries will see 
that the only way to get this amount of aid is to do this?
    We already have tribal conflicts. Iraq pales to the tribal 
conflicts in Afghanistan. Part of the reason we haven't been 
able to get most of the money to the government in Afghanistan 
is because we didn't feel many of those leaders were trusted. 
They were making all kinds of deals on their own. Then 
Pakistan, which was forced together out of India, laying tribes 
over tribes, is a tribal mess. If you don't control the 
narcotics, how do you propose to get this all sorted out?
    General Gregson. Narcotics are certainly a major, if not 
the only, source of funding for the Taliban and Al Qaeda. We 
are determined to eliminate or at least greatly decrease the 
amount of illegal activities on that in Afghanistan and other 
places.
    Eradication by itself hurts the farmers. The people who are 
making money off of the drug trade are not the subsistence 
farmers. They are the middlemen and the other people. So the 
other piece that has to be put in there if we are going to 
eliminate the growing of the poppies that leads to the heroin 
and opium is sufficient security. Then we can introduce 
alternative crops so that the individual farmers can make more 
money from the alternative crops then they are making from the 
poppies. We need to make sure that there is enough 
infrastructure, roads and other things, to get the legitimate 
crops to market and build the capacity that way.
    Your analogy about the Bloods and Crips is very 
interesting. This is all about the legitimate government 
providing proper, better, and more efficient services to the 
population than other groups who will come in and fill the 
place of the legitimate government. In many ways with the 
narcotics trade we have the wrong people providing the services 
and coercing the people involved.
    Ambassador, you wanted to talk some financing?
    Ambassador Holbrooke. I want to clarify what General 
Gregson just said because it is very critical. A lot has been 
written about the relationship between drugs and the enemy and 
there is a lot of confusion about that. The intelligence 
community is not in full agreement. My own view--and I met with 
the CIA analyst; we are meeting with a woman who just wrote a 
book about it tomorrow, open source--is as follows: The drug 
traffic is the source of the local Taliban funding in 
Afghanistan to a considerable degree but not exclusively. There 
is also massive extortion. So the people in Kandahar fuel the 
Taliban through the drugs.
    But as General Gregson said, spraying the crops just 
penalizes the farmer and they grow crops somewhere else. Our 
hundreds and hundreds of millions of dollars that we spend on 
crop eradication has not done any damage to the Taliban in the 
country. It has helped them recruit.
    In my experience in U.S. Government foreign aid, and I 
began my career with AID in the 1960's, this is the least 
effective program ever.
    Mr. Souder. Do you believe that is true in Colombia where 
we finally have cities you can walk?
    Ambassador Holbrooke. No.
    Mr. Souder. What would be the difference between Colombia 
and Afghanistan?
    Ambassador Holbrooke. I have no views on Colombia, 
Congressman. I have never served there or worked on the 
problem.
    But I want to go to Al Qaeda and the Taliban in Pakistan. 
There, according to our best sources, the primary source of 
money is money flowing in from supporters of jihad based in the 
international community of people who support them. Much of it 
seems to come from the Gulf but not the governments involved. I 
have now made three trips to the Gulf. The Treasury Department, 
the intelligence community, the FBI, and State are all working 
together. We have created a taskforce to address this issue. A 
lot of this has to be in closed session but I have no 
hesitation saying in public that we are intensely concerned 
about this much greater flow of money.
    As far as the drug trade goes, the major beneficiaries are 
corrupt officials and people on the take in the police system. 
So although there is some going to the Taliban, Al Qaeda 
doesn't get its money from drugs. They get their money from the 
international support for jihad. This has to be a worldwide 
effort.
    Mr. Tierney. Thank you. Thank you, Mr. Souder.
    We are pleased to have joining us the chairman of the full 
committee, Mr. Ed Towns from New York who was busy on the floor 
with other matters. Mr. Chairman, we want to thank you for 
convening this meeting and your leadership on this issue. If 
you are prepared, we would like to give you an opportunity to 
make a statement and ask whatever questions you might have for 
the witnesses.
    Mr. Towns. Thank you very much. Let me ask that my entire 
statement be placed in the record.
    Mr. Tierney. Without objection, so ordered.
    [The prepared statement of Hon. Edolphus Towns follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Towns. Let me also apologize for the votes that are 
going on. I know we scheduled it before and we had a vote 
problem. Today we sort of have a vote problem but we are going 
to work through it in some kind of way.
    Let me begin by saying we now plan to significantly ramp up 
in terms of the military and civilian aid programs for 
Afghanistan and Pakistan. We plan to do that. Yet aid in both 
countries has proven extraordinarily difficult to oversee. We 
feel that it is ripe for waste, fraud, and abuse. What steps 
have you taken or will you take to ensure greater transparency 
and accountability for the U.S. aid programs?
    Ambassador Holbrooke. Mr. Chairman, it is good to see you. 
If I can be shameless for a minute, I want to introduce the 
mother and future mother in law of two of your own 
constituents. My stepson and his future fiancee, Katie Marton, 
are here today. I know that is shameless but I couldn't resist.
    In terms of greater accountability, we have already talked 
about SIGAR. I will be meeting again with General Arnold Fields 
this afternoon. Chairman Tierney asked if we wished to extend 
SIGAR to Pakistan. You put me under oath so I said yes I would, 
and I would extend its mandate in Afghanistan. Second, we are 
cutting back on contracts. Above all, we have this integrated 
civilian/military effort. General Gregson and I, testifying 
together, we are well mindful of our mandate not to waste 
taxpayer money. A lot has been wasted already. We are going to 
do everything we can.
    I would offer this committee, which as I mentioned earlier 
I have never testified before, we would offer you total 
involvement in our efforts. You can help us do what is our 
common goal. I really mean that sincerely.
    Mr. Towns. Thank you very much. On that note, I yield back.
    Mr. Tierney. Thank you, Mr. Chairman. Mr. Bilbray has 
probably gone to vote so Mr. Coffman, you are recognized for 5 
minutes.
    Mr. Coffman. Thank you, Mr. Chairman. Thank you both for 
your service to our country. I myself served in Iraq at a time 
with the U.S. Marine Corps when things were not going very 
well. It wasn't until later on when there was enough security 
on the ground during the surge that provided enough security to 
allow the political process to move forward and the kind of 
capacity building to occur to create a government with more 
stability that is allowing us at this time to do a phased 
withdrawal from the country.
    When I look at the metrics between Iraq and Afghanistan, it 
looks to me that this administration is making the same 
mistakes that George W. Bush made in Iraq, that we are 
incrementally putting in resources that we know are not 
adequate. Because of that, we will unnecessarily cost the lives 
of young Americans in this war.
    Afghanistan has a larger land mass than Iraq with more 
difficult terrain. Afghanistan has a larger population than 
Iraq disbursed in rural areas, unlike Iraq. Afghanistan has no 
real history of governance that Iraq has. Iraq today has 
610,000 members to its Iraqi security forces. Afghanistan is 
projecting I think under 250,000. I know they are reexamining 
that. Iraq in the surge had 160,000 U.S. military personnel on 
the ground. We are going to source up to I think something like 
68,000 to include advisors and trainers.
    This administration needs to be honest with the American 
people and up front as to what the cost of reversing the 
situation in Afghanistan is going to take. Please answer.
    General Gregson. Thank you. Afghanistan and Iraq are indeed 
different. There is no doubt about it. We take your point about 
the resources that may or may not be adequate. We are going 
through another assessment. General McChrystal has been ordered 
by the Secretary of Defense to conduct an assessment within the 
first 60 days of all manner of things in Afghanistan to include 
what will be needed to reverse the adverse trends and to 
provide adequate security and to get on with the development 
that we need to get on with there.
    In the meantime, in the interagency process led by 
Ambassador Holbrooke, we are making an assessment across the 
region particularly in Afghanistan and Pakistan. We expect to 
consult closely with the Congress on these metrics as we go 
forward. We need not only a whole of government--meaning a 
whole of the administration solution--we need a whole of 
government, whole of Nation solution from our part to make sure 
Afghanistan comes out the way we want it to.
    Mr. Coffman. Thank you. I understand. I was in Afghanistan 
recently in discussions with General McKiernan and the 
Ambassador as well as the General who is in charge of training 
Afghan security forces. It is my understanding that review is 
focused on Afghanistan's security forces and is not focused on 
U.S. military personnel. I just want to urge you to take the 
message back to the administration that it needs to be focused 
on both.
    The American people need to know what the true cost of this 
war is going to be and that we are not going to go back to the 
George W. Bush days before the surge where we are just getting 
into the war and then figuring out based on our losses that we 
need more resources and then we stop and pause until we get it 
right. I think that is just unfair to the young men and women 
that are serving on the ground. Again, I think that we need to 
do not what is convenient but what is necessary to reverse the 
tide in this war if that is the intention of this 
administration.
    General Gregson. Yes, it is the intention of the 
administration. We spoke earlier--Ambassador Holbrooke spoke 
earlier--about making very sure that we are properly measuring 
outputs, not just the easier measure of purely inputs. We are 
going to remain focused on outcomes, which is the proper way to 
measure what we are doing. I think that fits with the intent of 
your comments that we make sure that, No. 1, we are honest with 
the American people and, No. 2, we can explain what we intend 
to gain from the expenditure of resources, both lives and 
treasure here.
    Mr. Coffman. Thank you, General. To the Marines and 
soldiers on the ground, those inputs are important for their 
day to day survival. We certainly found that out in Iraq the 
hard way.
    Mr. Tierney. Thank you, Mr. Coffman. Thank you for joining 
us today.
    There are two votes for those Members on the panel here. 
Both of them are procedural votes and they are going to be back 
to back. One is winding down and the other will immediately 
follow.
    Ms. Watson, you are recognized for 5 minutes.
    Ms. Watson. Thank you, Mr. Chairman. I want to really thank 
you two gentleman for being so patient while we play games on 
the floor. These are procedural motions and they delay our 
serious work. What we are discussing is serious so if Members 
run out it is just because they have to go down and vote.
    I have to defend my Crips and Bloods. You know, we started 
in south central and we send them worldwide. But so many of 
these youngsters have never been off of their own turf or to 
the Pacific Ocean. The end result of the drug trade is really 
that is coming over our southern border. So I wanted to set 
that record straight.
    Ambassador Holbrooke, I am so glad that you are back in the 
mix now. We need you.
    My question goes to what we have observed in Iraq. There 
was an attempt to build the largest embassy in the world at $1 
trillion. I thought the largest embassy in the world should be 
in India and China so we stopped the funding on that. I 
understand that only nine people in the embassy spoke Arabic. 
So my concern is the communication, the understanding of the 
culture, the language, and so on. I think that understanding 
who we are dealing with in Pakistan and Afghanistan would help 
us. It is not all a military war. It is a psychological war.
    So I would like you to comment, both of you. General, thank 
you. So I am really going to address this to the Ambassador 
because I was there myself and you really have to understand 
the people.
    Ambassador Holbrooke. I love your question because I was a 
career foreign service officer. I was sent to Vietnam and I 
studied Vietnamese for a year. Please don't ask me to prove it 
today.
    Ms. Watson. [Remarks made in Vietnamese.]
    Ambassador Holbrooke. Of course we have to speak the 
languages. I can't speak to the Iraq story but I can speak very 
directly to our current efforts. The easiest way to do that is 
to introduce my staff assistant who is traveling with me to the 
Hill, Kim McClure. Kim, could you stand a minute? Kim is a Dari 
speaker. She was in Ghazni Province. She doesn't know it yet, 
but she is going to end up there again, maybe not in Ghazni. We 
have a lot of people like Kim in the foreign service now.
    Once President Obama articulated the priority of 
Afghanistan, once Hilary Clinton made the personal appeals, we 
found something quite interesting. Some 800 people signed up to 
be considered for this surge. I just gave the chairman an 
unclassified timeline on the surge. The Pentagon, at Secretary 
Gates's initiative, has given us an additional list of about 
300 people. I brought with me today Joanne Arzt who is in 
charge of 305 additional names from the Pentagon. Joanne, who 
heads a special Afghan support office, is working very, very 
hard on that.
    With your permission, Mr. Chairman, we would be delighted 
to submit an additional statement for the record on these 
issues. It doesn't matter how many people we send if they don't 
know the territory, we are not going to succeed.
    Mr. Tierney. Without objection, so ordered.
    Ms. Watson. Mr. Chairman, we have been, just to inform, 
very interested in the diversity in the State Department. I am 
so glad that you are picking that cudgel up and moving with it. 
I think the more people who reflect those out there that you 
are relating to, I think the better understanding we have. 
Maybe we can put our guns down and negotiate through diplomacy. 
We are giving some new tools to our Secretary of State and we 
can talk about that another time. But the questions have been 
who are we fighting and what are we trying to win. I think we 
are going to have to do it through negotiations and through 
diplomacy and not at the end of a gun.
    General, would you like to respond?
    General Gregson. I concur completely with that statement. 
The military has a role here but the most important role is 
that of the guardian. It is not how many enemies we attack. It 
is how well and how much of the population we can protect. That 
is the operating philosophy and the strong guidance from both 
the previous General in command, General McKiernan, and it is 
certainly re-endorsed and restrengthened by General McChrystal, 
who is now in charge.
    I might add two additional points on the thrust of your 
comments. In addition to the people that Ambassador Holbrooke 
spoke about, we have collected over 1,000 resumes of Department 
of Defense civilians and retired military who are volunteering 
to help to fill any civilian capacity positions. We don't know 
how many we will need yet but there is a strong well of 
patriotism within the country and certainly within the 
Government to volunteer to serve in Afghanistan and Pakistan.
    The second point I might make, particularly on the language 
capability where Congress may be able to provide some help to 
us, is that we are a Nation of immigrants. We have a tremendous 
latent language capability out there. You often find people 
that are serving in Government or other places and you have no 
idea that they speak a language of value to us. There has to be 
a way to tap into that reservoir out there where we can get 
people who do bring native language speaking capability in 
these many areas that are of certainly very high importance to 
us now.
    Ambassador Holbrooke. There is one very good example of 
that, Mr. Chairman, which we have now implemented in the 
refugee camps in Pakistan. A member of our team, Shamala 
Chaudri from Ohio, comes from a family from the Punjab in 
Pakistan, has been mobilizing women doctors of Pakistani 
American background. The first six are in the refugee camps 
now. It is obvious why you need women doctors in that culture. 
Another 25 or 30 have signed up. They would have gone except 
for the bombing of the Pearl Hotel.
    This may seem like a small thing sitting in this room today 
but you get some women doctors into those camps and you are 
making a real difference. Secretary Clinton is particularly 
focused, as you and I have talked about, on this question of 
the Pakistan American diaspora as is Congressman Van Hollen.
    Mr. Tierney. As you know, a week ago both Sherry Rehman, 
who is a member of Parliament over there, and Dr. Ahmed were 
indicating that very thing about getting female doctors over in 
that region, particularly with all the disruption that has gone 
on. I think I shared with you or were about to share about 
12,000 names of Pakistani heritage doctors in the United 
States. So we have a large reservoir of people--the 
administration seems intent on trying to utilize those people 
the best they can.
    Ambassador Holbrooke. Do we have that list yet because that 
would be very valuable?
    Mr. Tierney. I know that we shared it. People on your staff 
and ours need to work that out.
    Mr. Chaffetz, you have been very patient. Thank you. You 
are recognized for 5 minutes.
    Mr. Chaffetz. Thank you. Thank you, Ambassador and General, 
for being here. Thank you for your dedication to our country, 
your commitment to public service, and the untold number of 
hours and heartache that you go through. We appreciate that.
    I would like to talk about the nation-building aspect of 
what is happening. But before I get to that, Ambassador, I need 
to ask you just a brief set of questions about your involvement 
with the Countrywide loans that were given out, the so-called 
Friends of Angelo program. My understanding is that you were a 
private citizen when you participated in that. Personally, I 
don't see a challenge when you are involved as a private 
citizen engaged in those types of things. But would you agree 
with me that there is a difference between doing that as a 
private citizen and if you were engaged in Government service?
    Mr. Tierney. I am going to let you answer that. I expect 
you want to respond to that. But I would like to try to keep 
this on the subject matter of the hearing. We don't get many 
opportunities to have oversight hearings about this region and 
have the Ambassador and the General here.
    Mr. Chaffetz. This shouldn't take long.
    Mr. Tierney. So I am not going to rule it out of order if 
the Ambassador wants to answer it but otherwise I will.
    Ambassador Holbrooke. I will do whatever you want, Mr. 
Chairman. I will be happy to talk privately about it.
    Mr. Tierney. I will soon have you respond off the record on 
that so we can keep this hearing focused on matters pertaining 
to this region and the oversight aspect.
    Mr. Chaffetz. I will get through it very quickly. Believe 
me, I want to talk about what is going on in Afghanistan.
    Mr. Tierney. Well, I think we are through it already is 
what I am basically saying. So if you want to move on to your 
next question, we are happy to entertain it.
    Mr. Chaffetz. I would appreciate it if the Ambassador has 
expressed a willingness to answer it, I would like to hear it.
    Ambassador Holbrooke. Well, I am not going to comment on 
other people. I was a private citizen. One sixth of all the 
mortgage loans in the country were from that company. We looked 
around. It wasn't actually a loan for me; it was for my son.
    Mr. Chaffetz. The question I really want to ask is if you 
were involved in public service, that would be an issue, right? 
This really shouldn't be an issue because you were a private 
citizen.
    Mr. Tierney. Mr. Chaffetz, if you can tie that in somehow 
so it has some relevance to the hearing we are having, fine. 
Otherwise, we are just going to rule that line of questioning 
out of order and ask you to move on to something pertinent to 
this hearing.
    Mr. Chaffetz. I would like the Ambassador to answer that 
question, if that is all right.
    Mr. Tierney. I know you would but now I am asking you to 
ask something that is pertinent to this hearing or we will just 
move on to the next questioner.
    Mr. Chaffetz. I do think it is the relevancy and 
jurisdiction of this committee to ask a relevant question like 
that.
    Ms. Watson. Mr. Chairman, this should be in a private 
conversation.
    Mr. Tierney. Excuse me. We have had a ruling of the Chair. 
Mr. Chaffetz can either challenge the ruling or move on.
    Mr. Chaffetz. I will move on.
    Mr. Tierney. Thank you.
    Mr. Chaffetz. I had a chance to go to Afghanistan.
    Let me just ask, Mr. Chairman, can I ask for unanimous 
consent to at least submit the documents I have in my 
possession for the record?
    Mr. Tierney. We are going to withhold reservation on that 
objection until we see the documents. We will make a ruling 
after that.
    Mr. Chaffetz. Thank you. The nation-building aspect of what 
is happening, my concern is the gravity and the propensity to 
be able to actually execute and achieve those goals in so-
called nation-building when you have an education system where 
you have such an amazingly high illiteracy rate. How do we 
tackle that, not only in the short term but the long term as 
well? That seems like such a daunting task when you have parts 
of that country with, it is my understanding, as high as a 90 
or maybe even 95 percent illiteracy rate. How do we address 
that?
    Ambassador Holbrooke. We have a very strong education 
backing. The government, since the Taliban were thrown out, has 
about 6 or 7 million people in schools including 2 or 3 million 
girls. Literacy rates are very low but they are not as low as 
you said. I think your figures are wrong on that. It is a very 
high priority but literacy in and of itself is not the 
underlying cause of the problem we face. It is an endemic 
problem and one that has to be addressed across the whole 
world.
    Mr. Chaffetz. General, did you want to answer?
    General Gregson. I would like to comment that nation-
building travels under many definitions. The standard time-
proven principles of a counter-insurgency campaign call for a 
whole of government effort providing security for the people 
and providing the means of development, providing means for 
their lives to get a little bit better day by day, to be able 
to see that rising standard of living, and to bring good 
governance from the host nation to bear along with the host 
nation's security forces.
    Literacy education is part of it but a literacy rate 
measured by the way we do in the West I would submit does not 
necessarily indicate a lack of intelligence. The oral tradition 
in Afghanistan is very strong. To make progress in Afghanistan 
we have to operate within the cultural norms and expectations 
within Afghanistan while still bringing the good governance, 
the security, and all those things there and providing better 
services to the population than our enemies.
    Mr. Tierney. Thank you, General. Thank you, Mr. Chaffetz. 
Mr. Van Hollen, you are recognized for 5 minutes.
    Mr. Van Hollen. I thank you very much, Mr. Chairman. 
Gentlemen, thank you both for your testimony.
    I was very pleased to see that the President is finally 
allocating the resources, attention, and energy necessary to 
address the national security challenges we face in Pakistan 
and Afghanistan. I have just a quick word on Pakistan.
    Ambassador Holbrooke, thank you for all your efforts, 
including your efforts to pass the Reconstruction Opportunity 
Zone legislation. As you and the President have said, military 
force alone is not going to resolve the challenges here. We 
have to have a comprehensive strategy. Certainly economic 
support, especially by way of free trade opportunities, is 
important. If you have any update on where they are in the 
Senate, I would appreciate it. I know you have been in 
conversations with Senator Cantwell.
    But before you answer that, let me just say with respect to 
Pakistan that I think enormous progress is being made in a 
short period of time. The new Pakistani government and I think 
the people of Pakistan now see the challenge of the Pakistani 
Taliban as not just the United States' problem but clearly a 
problem for the people of Pakistan. That has brought about a 
sea change. We need to make sure that we continue to work with 
the government to make sure they take advantage of the 
opportunities that present themselves. We also need to make 
sure that out of this refugee crisis it is clear that the 
Pakistani government, with our help and support, is able to 
provide the resources so that it doesn't turn into something 
that undermines our support in that area.
    I want to briefly turn to Afghanistan. I commend the 
administration on the changes with respect to the use of 
bombing. There is no doubt that if we are going to be 
successful in Afghanistan we have to win over the hearts and 
minds of the people. I think our previous approach was 
counterproductive in that regard. So I am pleased to see the 
changes there.
    My question relates to the AID program because, as you have 
said, Ambassador Holbrooke, I think there have been serious 
shortcomings in the way AID has approached Afghanistan. I am 
very heartened by the changes that you have made. One program 
that by a lot of the testimony of a lot of people seems to be 
successful at the local level is the National Solidarity 
Program. I would be interested in your thoughts on that.
    There is a perception among some that AID is not a fan of 
the National Solidarity Program and has not been interested in 
fully supporting that effort. I don't know if that perception 
is accurate or not. I am interested in your take on that.
    But there is some concern that some of the proposals that 
are being made will undermine the efforts of the National 
Solidarity Program. I am interested in your views on that.
    Ambassador Holbrooke. Before I answer the AID portion of 
the question, could I let General Gregson address the bombing 
issue because it is far and away the most important issue?
    General Gregson. I could not agree more on the potential 
for any use of close air support missions or any air support 
missions to be counterproductive. All the Commanders and all 
the air crews are very carefully attuned to the necessity to 
prevent civilian casualties. We are saddened whenever any 
innocent civilian is killed. We are continually adjusting our 
procedures, many times in response to discovered techniques 
that the enemy is using to place civilians between us and 
themselves, in other words using them as a shield or 
intentionally trying to cause casualties. It is a very serious 
matter. It has our full attention.
    Ambassador Holbrooke. Congressman Van Hollen, once again I 
give my appreciation to your leadership.
    On the Senate ROZ side, I met this morning with three 
Members of the Senate, two of the Republican leadership and 
Senator Cantwell. I talked to Senator Kerry and many other 
Senators. But where it stood 3 hours ago and where it stands 
right now could be different, so I think I had better just 
defer. But let me make it clear, the President has spoken 
publicly about the value of this. When your body passed the 
legislation it was a huge story in Pakistan and a favorable 
story, and we cannot thank you enough and we hope that it will 
become law.
    On the refugee issue, let me just point out again that the 
refugees are in the ROZ area and that is the critical issue.
    On the bombing, let me add to what General Gregson just 
said, a personal comment just echoing what General McChrystal, 
Ambassador Eikenberry, and I have all said publicly in the 
past. The war could be lost over this issue. If the war turns 
from a war against the Taliban and to a war against the Pashtun 
people, we will lose. The Taliban propaganda is all designed to 
make that point. We were successful in the 1980's in turning 
the Soviet invasion along those lines. We cannot let that 
happen to us. That is why we are putting so much attention on 
what is called strategic communications, a phrase I am not 
comfortable with because it does not quite convey what we are 
talking about. We are talking about counter-propaganda. And the 
Taliban have been winning the propaganda struggle.
    Finally, on the National Solidarity Program, I consider it 
the best program in the country--22,000 villages have been 
covered by it, 7,000 have not. AID may or may not have been 
supportive in the past but I can assure you, Mr. Chairman, they 
are 100 percent supportive now or they are not going to be 
working on integrated issues. The 7,000 uncovered villages, I 
have talked to Bob Zellick, the president of the World Bank, 
about increasing their support. Some of your colleagues have 
expressed support for it. And we want to do everything we can 
to get this program going because it is one of the few programs 
that gets all the way down to the bottom levels.
    Mr. Van Hollen. Thank you, Mr. Chairman.
    Mr. Tierney. Thank you, Mr. Van Hollen. Just if I might 
interject something here, Mr. Ambassador. You talked about 
strategic communications as a critical component, whether that 
is the right term for it or not. You say you are going to need 
additional personal instructions in Kabul and the Afghan 
provinces, in Islamabad, Peshawar, that would be necessary to 
implement the new program and you are working with the 
embassies in Kabul and Islamabad to address the needs. That is 
all in your written statement. What additional resources do you 
anticipate that you will require?
    Ambassador Holbrooke. The resources we need for so-called 
STRATCOM are in the supplemental. The ISAF and CENTCOM have put 
vast additional resources into this issue and, very 
importantly, have brought a new two star admiral, Admiral 
Smith, who was in charge of this issue in Iraq, out there as 
part of the headquarters team for General McChrystal. We have a 
team in my office working on the civilian/military integration. 
We are still lacking a civilian counterpart to Admiral Smith on 
the ground in Kabul. That is a very hard position to fill. So, 
on the resources front, I think we have enough. And we talked 
earlier about counter-narcotics. Some of that $45 million we 
are taking away from crop eradication will be used for public 
information. And when you counter the narcotics issue you are 
also countering the Taliban propaganda. So I do not feel there 
is a huge resource issue. What there is is an intellectual 
problem about the nature of the enemy. Their propaganda is all 
negative--we are terrorist, we defile their soil, the 
government is corrupt. You know the litany. And so we need a 
really sophisticated set of public information programs and 
they cannot be in an American accent, they must be local people 
speaking to their tribal colleagues.
    Mr. Tierney. Thank you. Thank you, Mr. Ambassador.
    Ms. Norton, you are recognized for 5 minutes.
    Ms. Norton. Thank you, Mr. Chairman. It is an important 
hearing you have called and very much appreciated.
    Ambassador Holbrooke, we have been hearing horrific reports 
about internally displaced persons in Pakistan. Initially, it 
appears that the Pakistani Army was reluctant, understandably, 
to engage in conflict with their own population on the ground, 
with the difficulty of doing so, particularly when the Taliban 
is involved in exercising the kinds of pressure that they have 
brought on the population. Is this country doing anything to 
aid these people who apparently have been asked and have moved 
or run from where much of the fighting is taking place and are 
living as catch-as-catch can, internally displaced in their own 
country. Have we provided any assistance of any kind? What of 
those, and are there large numbers still left in the conflict 
zones in Pakistan?
    Ambassador Holbrooke. I am sorry, I did not catch one 
phrase at the end of your question. What if there is what?
    Ms. Norton. Sorry?
    Ambassador Holbrooke. I did not catch one phrase. What if 
there is, I did not catch what you said after that. I am sorry.
    Ms. Norton. My question goes to what is being done for the 
internally displaced people or persons.
    Ambassador Holbrooke. As soon as the crisis hit, the first 
leader in the world to get involved was President Obama. This 
was acknowledged in Ahmed Rashid's article in the Washington 
Post--he is the most respected journalist in South Asia--last 
week. President Obama personally got involved and----
    Ms. Norton. With aid? In what way?
    Ambassador Holbrooke. He effectively became the chief 
refugee officer of the United States and Secretary Clinton 
announced $110 million of aid immediately. That has already 
been dispersed, We then wrote a letter to the leadership asking 
for $200 million to be added to the supplemental at the last 
minute for this issue. That was done. We found other money, and 
out total right now is $380 million. Now I was sent out by the 
President to visit the camps, as the chairman mentioned. The 
rest of the world has not responded in kind. Normally, we give 
about a quarter to a third of international assistance in 
humanitarian crises. In this case, we are well over 50 percent, 
about 55 percent. That is not right. So the President sent me 
to the Gulf to talk to the Gulf States. I went to four of them, 
he, himself, went to Saudi Arabia. We are asking for----
    Ms. Norton. Well what about the Islamic relief 
organizations that we understand have been playing an important 
role. That is not the case?
    Ambassador Holbrooke. I do not want to get into castigating 
other groups, but we honestly believe that other countries, 
including ones you are referring to, have not done enough. We 
are talking to them continually about this. Some, like the 
United Arab Emirates just gave $30 million, Oman gave $12 
million. But we think more can be done. After all, these are 
countries which are neighbors of Pakistan with huge 
connections. In addition, we mentioned prior to your arrival 
here, we have mobilized the Pakistani-American community. We 
are sending women Pakistani-American doctors out there, for 
obvious reasons, in the camps. If you take your cell phone and 
you text S-W-A-T, SWAT, and then you send it to the number 
20222, you will automatically contribute $5 to the UNHCR. I 
urge you all to do it. I have maxed out; $25 is the maximum. We 
are doing everything we can to support this effort. We are 
taking the leadership role. Secretary Clinton and the President 
are incredibly concerned. We also have an economic advisory 
team headed by the White House's international economic expert 
David Lipton on their way out there to talk about the 
additional pressure this is putting on an economy which is in 
deep trouble and which had to take out an emergency IMF loan of 
$6.7 billion last year with a quarterly report due next week. 
This was to raise energy prices by 10 percent next week under 
the IMF agreement. The whole rest of the country, 60 percent of 
the people in Pakistan earn less than $2 a day, the U.N. 
poverty level. We are deeply concerned with the overall 
strategic, political, and humanitarian implications of this. 
There is no country in the world getting more attention right 
now from President Obama and the Secretary of State and the 
rest of us than Pakistan on exactly these issues.
    Mr. Tierney. Thank you. Thank you, Ms. Norton.
    General Gregson. If I might.
    Mr. Tierney. I am sorry.
    General Gregson. Very briefly, DOD responded in the 
immediate aftermath of the appearance of the people pushed out 
of their homes with aid, as requested. Admiral LeFever is our 
senior uniformed American in Islamabad. His counterpart is 
General Nadeem. Those two operated together in the Pakistani 
earthquake of 2005, so they are joined at the hip in our 
response.
    Mr. Tierney. Mr. Bilbray, you are recognized for 5 minutes.
    Mr. Bilbray. Thank you, Mr. Chairman. After last summer and 
in talking with some people, it became obvious to me our 
biggest military problem in Afghanistan was totally ignored by 
the press and a lot of people in politics, and that is while we 
were concentrating on contracts in Iraq by for-profits, we 
totally ignored what appears to me as huge abuses of nonprofits 
that were getting funds to do the economic development. That is 
where the problem was, the lack of economic development, giving 
people that alternative. Now I will say it frankly to both of 
you, with the successes we saw in Nangarhar with the reduction 
of poppies, and then to see the lack of response that we had in 
a province that had a major, and I would offer you the 
opportunity to comment, a major reduction that we had in that 
province, and the fact that we are looking at U.S. agriculture 
experts going in for 1 year and not knowing local culture, not 
knowing the local experience, not being able to really 
understand the application of their knowledge, do you see some 
real changes we need to make in the way we handle that? And I 
would open your comments about the problem of what I believe 
was major problems with the application of the contracts with 
the nonprofits.
    Ambassador Holbrooke. On the contract issue, we could not 
agree more. Prior to your arrival in the hearing, we discussed 
how many contracts we are holding up, renegotiating, and re-
examining, and I gave some examples.
    In regard to the counter-narcotics issue, we consider it of 
immense importance. But we do not think crop eradication has 
had any negative effect on the real enemy. In fact, it has only 
driven farmers into the hands of the Taliban. So we are 
downgrading crop eradication and redistributing the resources 
that you have appropriated for that to interdiction, rule of 
law, going after the big guys, and those involved people in the 
government. The drugs are an important but not the primary 
source of funding for the enemy. They get a lot more money out 
of the Gulf, according to our intelligence sources, and Al 
Qaeda does not get money at all from drugs. That goes to local 
Taliban and places like Kandahar, and they can also get it from 
extortion. But we recognize the importance of the drug issue. 
But what I would like to do, if you are interested, Mr. 
Chairman, is at another day come up and brief you in detail and 
bring with us the entire panoply of people, military and 
civilian, working in counter-narcotics because I think it is 
such an important sub-issue and we ought to do it as a coherent 
interagency whole.
    But I appreciate your comments about contracts. We really 
are spending a lot of time sifting through a lot of debris 
which we found when we arrived.
    Mr. Bilbray. The lack of application of contracts where 
people were actually--I am ranking member on Procurement 
Subcommittee--showing photos of their groves they were planting 
and there were photos of other locations, and we were not 
keeping on that, and the children were watching American troops 
destroy daddy's crop but did not see us planting it. And I have 
to say again, it seems to me that the transition is how to 
slowly wean off and maybe through a series of phasing in 
economic alternatives and phasing out the lands that can be 
used. We do not need to talk in detail about how they do it. 
Not an all or nothing thing, but a phasing in so that there is 
an economic alternative as the ability to grow the crops are 
slowly weaned out through proper application of technology. Is 
that a fair approach?
    General Gregson. Yes.
    Mr. Bilbray. Then it is doable?
    General Gregson. Yes. And not only doable in the way that 
you described, but it has to be done that way. To repeat what 
we have said, eradication applied solely with spraying the 
crops or whatever else we are doing does nothing else but hurt 
the subsistence farmer who is not getting a great profit from 
this stuff anyway and drives them, as the Ambassador said, into 
the arms of the Taliban. We can go to alternative crops. It is 
proven in other places in the world that were tremendously 
troubled with the growth of poppies and the opium trade, 
particularly the Thailand part of the Golden Triangle is now 
growing designer coffee that sells for $3 a cup here in 
Washington and the farmers get the profits. But the key is 
providing the security and also providing the improvements to 
the infrastructure so the farmers can get their crops to market 
without paying 27 tolls between Kabul and Iran or wherever it 
is that they are going. So it is an all up approach. It is also 
codified strongly in all the best practices of counter-
insurgency. And with the new leadership on the process here in 
Washington, with Ambassador Holbrooke, we are hopeful that we 
can bring everybody into this to fix the problem.
    Ambassador Holbrooke. Mr. Chairman, I was just handed a 
report. There is nothing we can do about it but just so you 
know, the embassy in Kabul has just reported a large explosion 
on the airfield at the site of the Jalalabad provincial 
reconstruction team. That is the province that the Congressman 
was just talking about. I assume you know it well from your own 
trips. Initial reports are unclear as to whether any Americans 
have been injured or not.
    Mr. Tierney. Thank you for that. We want to watch that.
    Ambassador Holbrooke. It only reminds us I think in the 
most graphic possible way what dangers our civilian and 
military personnel face on a daily basis and the fact that so 
many of them in both uniform and civilian clothes are 
volunteering to go out is to General Gregson and me the most 
inspiring part of what we are doing.
    Mr. Tierney. We oftentimes in this committee during our 
hearings try to make mention of the risk not to just the people 
in uniform, but a lot of civilians go over there oftentimes 
with less security than we are all comfortable with. They do it 
understanding the risk that they take, but it is no less 
notable and noble for them to do it. So let us hope that nobody 
was injured.
    To my witnesses, you have been good enough to say that you 
would stay until 1 p.m. and we have a few minutes left. We have 
three people that have not asked questions yet. I am going to 
ask if they would ask their questions, try to keep it within a 
couple of minutes so we can hold up our end of the promise to 
these witnesses. I understand the voting has kept everyone 
going back and forth and I apologize. But if we can keep this 
reasonably close to 1 p.m., I hope we will be satisfying 
everybody.
    Mr. Kucinich.
    Mr. Kucinich. I thank the gentleman. I, too, have a news 
report, Ambassador. The New York Times says an air strike 
believed to have been carried out by a U.S. drone killed at 
least 60 people at a funeral for a Taliban fighter in south 
Waziristan. Residents of the area and local news reports said 
details of the attack remain unclear. The death toll was 
exceptionally high. They are saying, if the reports are 
accurate, the strike could be the deadliest since the United 
States began using aircraft to fire remotely guided missiles. 
Now Ambassador Holbrooke, attacks on Afghanistan and Pakistan 
seem to have caused the United States to lose ground as we 
attempt to stabilize the region. Inevitably, these attacks when 
they are massive produce reports that innocent civilian deaths, 
including the deaths of women and children, result from drone 
attacks and that these attacks have been met with hostility by 
the citizens of Afghanistan and Pakistan. Now I would just like 
to know, would you address the role that these drones used in 
Pakistan and Afghanistan play in the new interagency strategy 
with the Department of Defense. Also, when considering the use 
of drones, what consideration has been given to the potential 
increase in extremism among the population due to their use? 
Ambassador Holbrooke.
    Ambassador Holbrooke. It is a very tough set of questions 
and you and I have different opinions on this. But before I 
respond directly, I would like General Gregson to make a 
specific response to what you just said and then I will come 
back.
    Mr. Kucinich. Well I will redirect the question, General 
Gregson, and I would like to hear it from Ambassador Holbrooke 
as well. And I thank the Chair.
    General Gregson. I was made aware of that report shortly 
before we came into the hearing room. We take any reports of 
innocent casualties very seriously. We grieve for any innocent 
people that are killed or hurt in any of these actions. You are 
correct that we have to very carefully balance the objective we 
are trying to achieve with these strikes with the creation of 
more disaffected people and the creation of more enemies. I do 
not know the details on this single strike, but I can guarantee 
that it will be fully investigated and we will insist on a full 
accounting.
    Mr. Kucinich. Ambassador Holbrooke.
    Ambassador Holbrooke. Congressman, as you and I have 
discussed privately, I am really ready to talk about this in 
any level of detail required but we have American lives on the 
line here and we have a hugely important strategic relationship 
with Pakistan at a critical juncture. Prior to your arrival we 
spent a great deal of time talking about the refugees, the 
economic crisis. And with great respect, I would rather 
continue this discussion off-line.
    Mr. Kucinich. All right. I thank the Chair. And I would 
like to continue the discussion. Thank you, Ambassador 
Holbrooke.
    Mr. Tierney. Thank you, Mr. Kucinich. Ms. Kaptur.
    Ms. Kaptur. Thank you, Mr. Chairman. Welcome gentlemen. 
General Gregson, can you provide now or for the record the 
number of civilian contractors by category working inside of 
Afghanistan versus our regular military force? And if you had 
to guess today, are they equal in number? And what about their 
responsibility?
    General Gregson. Let me take that for the record, if I 
could.
    Ms. Kaptur. All right. I am very interested in that and I 
will provide more detail for the question as well.
    Let me state that what worries me about this whole Central 
Asian engagement is the revolving door in and out of 
Government, multi-million dollar contracts and interests, 
endless wars, sometimes justified by contractors, drawing us 
and our people deeper and deeper into a region of the world 
that we have very little competence to quell. It appears to me 
we are being drawn into the war inside Pakistan for SWAT and 
FATA. My question to both of you is, should that war be ours?
    General Gregson. Pakistan's challenge from the extremists 
is severe and we cannot win in Afghanistan without Pakistan 
succeeding. So to the extent that we can, we are helping 
Pakistan with this problem. Pakistan is a sovereign nation, 
they have a competent armed forces, we are not putting ground 
troops in there, we are providing help to help them build a 
counter-insurgency capability to include doctrine, equipment, 
and training.
    Ms. Kaptur. Could I ask Ambassador Holbrooke, is Mr. Milton 
Bearden working with our efforts in any way associated with you 
or other parts of our Government right now?
    Ambassador Holbrooke. Milt Bearden?
    Ms. Kaptur. Yes.
    Ambassador Holbrooke. Milt Bearden was our station chief 
when I was Ambassador in Germany. He is a friend of mine. Once 
in a while I see him. There is no professional relationship 
between Milt and myself since I left Germany as Ambassador in 
1994. He may be working with other people in the government, 
that I do not know, but there is no professional connection 
between Milt and me.
    Ms. Kaptur. I thank you, Mr. Ambassador. I have asked 
myself the question has the ISI ever told the United States the 
truth about anything. And when one looks at the internals of 
Pakistan and some of these ideas that we have from the 
administration about opportunity zones, and about where we are 
going to do all this development and so forth, would you not 
think that government would support its own interests in 
certain provinces and exclude other provinces. And as I look at 
some of the maps that have been submitted for the record where 
we are going to do all this development, so to speak, if I look 
at the trade deficit in textiles today we endure with Pakistan, 
we are down from 800,000 workers at the beginning of this 
decade in our country in textiles to less than half that now. 
Our textiles from Pakistan have increased exponentially. You 
would think that there would be a lot more middle class inside 
of Pakistan for all the jobs that we have given up in this 
country. So what makes us think if we are going to do more of 
that it is going to have any impact?
    It seems to me that there is a funnel and the funnel is the 
central government of Pakistan and there are certain provinces 
where they hold power and certain provinces where they do not 
and we are being drawn into a situation that we have very 
little ability to control because we have a government there 
that has its own interests. I just say that for the record 
because I really do not see how we are going to change that, 
the internals of Pakistan. And Ambassador Holbrooke, you have 
an interesting background because you were in charge of rural 
pacification inside of Vietnam for AID. You know a lot about 
rural areas and what happened back in the 1960's. Do you 
sometimes have deja vu as you look at what you are facing in 
Afghanistan and Pakistan right now? Back then the Vietnamese 
cared more about their individual villages and regions than 
they did about any sense of security for the nation. We were 
not effective there. Now we are in an area with even less 
contact, ability, experience. So what makes you think that we 
are going to make a real difference here working with a 
government like Pakistan where they have their interests?
    Ambassador Holbrooke. I take those as rhetorical questions 
since----
    Ms. Kaptur. I would like to hear your comment. How do they 
expect us to look through the prism of Pakistan and win this 
one when Pakistan's central government has an interest in 
certain provinces and not in others?
    Ambassador Holbrooke. Mr. Chairman, Congresswoman Kaptur 
and I have talked many times and I greatly respect her and I 
would like to address one of the three issues she raised.
    Mr. Tierney. Address as many as you like. We are going to 
have Mr. Cummings ask questions afterwards.
    Ambassador Holbrooke. Let me start with the last one. First 
of all, you promoted me. I was not in charge of anything in 
Vietnam. I was 22 years old and they sent me down to the lower 
Mekong Delta. But I did spend time working on programs which 
are analogous to what we have in Afghanistan and there are 
structural similarities between the two countries. The No. 1 
problem is the sanctuary, Pakistan in the case of Afghanistan, 
Cambodia, Laos and North Vietnam in the case of Vietnam. There 
are also problems of governance and corruption. There are many 
structural similarities but the core difference, the Viet Cong 
and the North Vietnamese never at any point posed a direct 
threat to the American mainland. The people we are fighting now 
in Afghanistan and sanctuaries in Pakistan do. And as General 
Gregson said, we have to fix the Pakistan sanctuary program in 
order to succeed, however you define success in Afghanistan. So 
I want to say that I personally learned from my Vietnam 
experience things I am trying to apply in my present job. But I 
also questioned the Vietnam involvement and took a leave of 
absence from the government over it during the Nixon 
administration. In this case, I believe in what we are doing, I 
am fully committed, and I think every American should say not 
should we be there, but how can we succeed. We inherited a lot 
of programs which were not successful. We are fixing them point 
by point. This committee's oversight is indispensable in that 
goal.
    Second, in regard to textiles, I am not an expert on this 
issue, which is one of the most complicated in the United 
States, but Pakistan is sixth or seventh in terms of exports to 
the United States in textiles. It is about, do not hold me to 
the exact number, but it is about one-sixth, less than a sixth 
of the size of China, and there is Mexico and other countries 
in between. The ROZ legislation which Congressman Van Hollen 
has proposed and Senator Cantwell is advocating in the Senate 
would affect only about 4 or 5 million people in all of 
Pakistan. And if Pakistan is a national security priority for 
the United States, and I believe it is, the administration I 
work for believes it is, I would ask respectfully, recognizing 
the immense special complexities of this issue, that it be 
considered in this particular country in connection to our 
national security interests. As some of my colleagues in the 
military have said, Americans could die because people who are 
out of work in the FATA, the western tribal areas, join the 
Taliban, and jobs could reduce that. There is a causality in 
this legislation to our national interest and American lives 
which does not exist anywhere else in the world. That is why 
President Obama has gone out of his way to support what I would 
call in shorthand from the Van Hollen-Cantwell slightly 
different versions of the legislation.
    Mr. Tierney. Thank you, Ms. Kaptur.
    Ms. Kaptur. Mr. Chairman, may I put a couple remarks in the 
record. One by the former Russian general in the Soviet-Afghan 
conflict who said, ``If Afghanistan taught us an invaluable 
lesson, it has been and always will be impossible to solve 
political problems there with force.'' I would also like to ask 
Mr. Arnest [phonetic] or Ambassador Holbrooke, if he could, as 
far as being a Special Envoy, I do not know whether you are 
required to provide financial disclosure.
    Ambassador Holbrooke. I was.
    Ms. Kaptur. Those records for the official record today, 
please.
    Mr. Tierney. Without objection, so ordered.
    Mr. Cummings.
    Mr. Cummings. I will be very brief, Mr. Chairman. First of 
all, thank you gentlemen for being here. I apologize. We have 
National Defense on the floor and we are trying to figure out 
how to deal with this piracy problem. I am chairman of the 
Coast Guard Subcommittee, so I am trying to get an amendment 
through.
    I have just two things. Ambassador Holbrooke, first of all 
I want to thank you for meeting with some Pakistani American 
constituents of mine a week or so ago. It was one of the most 
meaningful things, as they tell me, that has ever happened in 
their lives. You took the time to listen to them. You took the 
time to try to understand their concerns about their other home 
country. It just meant a lot. I really appreciate it and they 
appreciate it.
    How important is that? I mean, it seems as if you took that 
very seriously. The support of the Pakistani Americans, and 
most of us have Pakistani Americans in our districts, how 
important is that to what you all are trying to do?
    Ambassador Holbrooke. Mr. Chairman, I want to publically 
thank Congressman Cummings and Congresswoman Sheila Jackson Lee 
for leading this effort. On the Republican side, although he 
was not at that meeting, I thank Congressman Burton who co-
chairs the Pakistan caucus.
    This is a personal initiative of Secretary of State 
Clinton. The congressional effort to bring in a group of 
leading Pakistani Americans to reinforce our efforts was just 
fantastic. I already mentioned before you were here the issue 
of the Pakistani American women doctors with which you are 
familiar. I just want to thank you for this.
    The diaspora community, as General Gregson has already 
said, is an immense resource to the United States not 
sufficiently utilized. There is also an Afghan community. We 
want to work with them. In fact, I think some of them are in 
your district.
    Mr. Cummings. Did you have something on that, General? You 
looked like you wanted to say something.
    General Gregson. Earlier we were talking about people with 
special skills, language capabilities, and cultural 
understanding. I only made the point that we are a Nation of 
immigrants. We have many, many people across the country with 
very, very special skills that we need to tap into like Dari 
speakers, Pashto speakers, and a number of the languages that 
don't make the top 10 in college studies but are critical to 
our effort now.
    Mr. Cummings. I have just one question and this will be it. 
This pending H.R. 1463, which presents congressional findings 
regarding Dr. Abdul Khan, founder of Pakistan's nuclear weapons 
program. According to those findings, Khan confessed to 
participating in an international network that provided nuclear 
technology to other nations. The government of Pakistan 
released Khan from house arrest in Islamabad after only 5 years 
and has refused to allow the U.S. Government the opportunity to 
interview him.
    How do our new strategies looking at nuclear weapons 
objectives address these developments? How do you reconcile our 
care and optimism about interagency cooperation given 
Pakistan's position to date with regard to Khan?
    Ambassador Holbrooke. On the nuclear issue itself, 
Congressman, I previously respectfully said that I want to 
stick to a long standing policy of discussing that only in 
executive sessions. It is the most sensitive issue. We pay a 
great deal of attention to it.
    On the question of A. Q. Khan, before I entered the 
Government I spoke repeatedly on the subject. I think it is 
inexplicable that when this whole business broke out about 6 
years ago the United States was not immediately involved in 
interrogations. We have repeatedly stated that. We share your 
concerns. At this time, it is my understanding--and I use those 
words advisedly because it is secondhand--that this issue is no 
longer relevant in the sense that he is old and apparently 
unreliable.
    Given the strategic crisis challenge we face, we are 
focusing on many other issues as well. But I have discussed it 
with the leadership of Pakistan. I have made my views known. I 
think you would find that you and I share the same views. I 
wish I could give you more satisfaction on that but I think I 
can't at this point. I am very disturbed. I think this man did 
more damage to the world than almost any other person this side 
of Osama Bin Laden himself.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Mr. Tierney. Thank you. I just want to clarify one matter. 
A moment ago Ms. Kaptur asked for items to be put in the 
record. One was a statement by a certain General. That was put 
on the record without objection. You made another request, I 
understand, that I didn't hear. You somehow wound two together 
in there. That was about financial statements or whatever?
    Ms. Kaptur. Financial disclosure.
    Mr. Tierney. That is not going to be allowed in by 
unanimous consent. Any public record that is already submitted 
obviously will be a public record and that will be allowed. But 
we are going to allow the witnesses to respect whatever public 
obligations they have. That is what we will have for that.
    Now I want to thank our witnesses for being here and 
generously going beyond the time period. We have a lot of 
interest from Members, as you can tell. I think well over 20 
Members got to ask questions and you fully answered them. We 
appreciate that. Mr. Flake and I are used to having some time 
to ourselves to ask a second or third round. But what I am 
going to do is I want to compliment your staff, both of your 
staffs, for the great work that they do in assisting you. I am 
nice to them because they deserve it, they do a great job, and 
because I now want to ask to be able to put some questions on 
the record for you and your staff to work on and to submit any 
other questions that we might have had to get into if we had a 
second or third round. Is there any problem with that, 
gentlemen?
    General Gregson. No.
    Mr. Tierney. Great, I appreciate that.
    Also, I want to recognize Mrs. Holbrooke who is here for 
the hearing this morning. Thank you for joining us. I hope he 
is taking you to lunch. Find some time on the schedule for 
that, though we even cut into that.
    Again, thank you. Thank you for your forbearance for the 
other day when we had all of those votes and for today's 
procedural votes as well.
    This meeting is adjourned. Thank you.
    [Whereupon, at 11:40 a.m., the committees were adjourned.]

                                 <all>

</pre></body></html>
